CERTIFICATE OF SERVICE
I, the undersigned, depose and state: I reside or do business within the County of
Alameda. I am eighteen years of age or older and not a party to this action. My business
address is 1 Kaiser Plaza, Suite 2300, Oakland, CA 94612-3642.
On Tuesday, July 6, 2021, I served three copies of the petition for writ of
certiorari and a copy of the certificate of compliance and this certificate of service on the
following persons by U.S. mail:
Office of the Attorney General
455 Golden Gate Ave., Suite 11000
San Francisco, California 94102-7004

I declare under penalty of perjury that the above is true. Executed in Oakland,
California on Tuesday, July 6, 2021

Sebastian Ramirez

